                                                     ry
                                               gulato
                                    Nuc lear Re
                             States    ission
                                                                                          NUREG/BR 0272
                      United     Comm                                                    Volume 3, Issue 1

                                                                                            June 2002



                                                                                      Inside this issue:
             OIG FRAUD BULLETIN
                                                                                      Introduction      1
                                                                                      Regarding IT
        Use of Information Technology
                                                                                      Authorized Uses 2
Did you ever imagine you could walk around a shopping mall and talk on the            of IT Equipment
telephone at the same time? Did you think it would be possible to have a little
box attached to your belt that would inform you when someone was trying to            Privacy Expecta- 2
                   call you? Did it ever occur to you that one day you would          tions
                   not have to use five carbons to type a memorandum and
                   not have to rely on your memory for correct spelling? How          Prohibited Use    3-4
                   about using a laptop on an airplane? Remarkable!                   of IT Equipment


                                                                                      OIG Cases         5-6
                   Information Technology has rapidly advanced over the last
                   decade and has unlocked new frontiers for education, re-
                   search, and sharing certain technologies with people all
                                                                                      ATM Scam          6
over the world. The Internet is an extremely useful tool that when used prop-
erly can make an employee’s job much easier.


As beneficial as the appropriate use of the Internet can be, the repercussions
for misuse of the Internet by a government employee can be very costly. Cer-
tain sites on the Internet can be dangerous and illegal places to visit. Too
much personal use can slow down information transfer from the network to               Special points of
other computers. Employee productivity may also                                        interest:
be affected by excess personal use of the Internet.
                                                                                       • OIG cases involving
                                                                                         pornographic sites
Use of the Internet is a privilege...not a right. Mis-                                 • News Articles on
use of government Information Technology is a mis-                                       other agencies
conduct issue and employees could be the subject                                         views of these sites
of disciplinary action. Accessing sites of a porno-                                    • Proper Use of NRC
graphic nature is an example of this type of miscon-                                     IT Equipment
duct.
                                                                                       • New ATM Scam you
                                                         Be mindful of what appears
                                                                                         should know about
                                                         on the screen of your com-
Statutes, regulations, NRC Management Directives         puter.
and policy all provide guidance on the proper and
improper use of government equipment. This edi-
tion of the OIG Fraud Bulletin is intended to summarize and clarify guidance
on the use of Information Technology equipment in the workplace and assist
you in the proper use of the Internet and all related government equipment.
    Authorized Uses of Information Technology Equipment for Personal Use
    Management Directive 2.7

    According to Management Directive 2.7, the “NRC is extending the opportunity to its employees to
    use government property for personal use in an effort to create a more supportive work environment.
    In this sense, the policy grants a privilege, not a right, to use agency Information Technology for cer-
    tain non-government purposes.”

    Use of any NRC Information Technology for personal use is acceptable provided such use involves
    1) minimal expense to the government, 2) is performed before or after work or during a lunch period,
    3) does not interfere with NRC’s mission, 4) does not violate the Standards of Ethical Conduct for
    Employees of the Executive Branch, and 5) is not prohibited by law.

    Equipment use includes personal computers, printers, software, telephones,
    pagers, facsimile machines, photocopiers, E-mail and the Internet.

    Minimal additional expense. An NRC telephone may be used for personal
    use to call a day care provider, doctor, spouse, dentist, elderly care or other
    place or person that may not be available after normal work hours. The tele-
    phone numbers that are dialed should be within the local calling area and the
                          calls should be of short duration and frequency. Other ex-
                          amples of activities involving the use of government equipment that incur only
                          minimal additional expense include making a few photocopies, using a com-
                          puter printer to print out a few pages of material, infrequently sending personal
                          E-mail messages or other limited use of the Internet for personal reasons. In
                          addition, short facsimile transmittals within the local calling area are also accept-
                          able.

    Use of this equipment should incur only small amounts of electricity, ink, toner, or paper. Long dis-
    tance telephone calls are only allowed if you call collect, use a calling card, dial an 800 number or
    third party billing to your home telephone. Unauthorized use of NRC telephones is a violation of MD
    2.3 ((D)(3)(b)(c)). The use of the agency’s Information Technology for official business has priority
    over personal use.

    During business hours, use of the computer/Internet is perfectly acceptable to access information
    relevant to official business. Any information that enhances an employee’s performance to more sat-
    isfactorily perform his or her job is considered acceptable use.

    Employees may also use Information Technology to check their Thrift Savings Plan or other personal
    investments, to seek employment, to communicate with a volunteer charity organization or to file a
    Freedom of Information/Privacy Act request.

    No Expectation of Privacy

    NRC employees do not have a right, nor should they expect a right, to privacy when using any
    agency Information Technology equipment, including the use of E-mail and the Internet. If employ-
    ees wish that their private activities remain private they should refrain from using NRC Information
    Technology for personal business. By using government Information Technology, NRC employees
    consent to disclosing all information contained in the files or passing through any NRC equipment.

Page 2
                                                                                               OIG FRAUD BULLETIN
Prohibited Use of Government Equipment
Computer Banner


Each time an NRC employee logs onto a government computer, a banner is displayed notifying the user
that the computer system is subject to monitoring for maintenance, system integrity, security and for other
official purposes. It states in part:


“You should not expect privacy nor protection of privileged communication with your personal attorney re-
garding information you create, send, receive, use or store on this system. If monitoring reveals possible
evidence of criminal statutes, this evidence and any related information including your identification may be
provided to law enforcement officials, including the Office of the Inspector General. Anyone who violates
the regulations is subject to criminal prosecution and/or disciplinary action.”


Statutes & Regulations Restricting IT Use

Management Directive 2.7, Inappropriate Personal Uses (D) further elaborates on
the proper and improper use of Information Technology with respect to computers,
pagers and telephones. One thing that must be clear about using Information
Technology (including the Internet) is that it must never be used:


•   to view or download any type of pornographic material
•   to view or download hate sites about race, religion, disabilities, sexual orientation, national origin
•   for illegal gambling and weapons
•   to support of “for-profit” activities, i.e., consulting for pay or for sale of goods or services
•   in support of a personal/private business
•   to gain unauthorized access to other computer systems
•   to create, copy, transmit or retransmit chain letters or other unauthorized mass mailings
•   to engage in prohibited political activity
•   to engage in terrorist activities
•   to engage in fund raising activities (except as provided in 5 CFR 950.102)
•   to endorse any product or service
•   to participate in any lobbying activity or engage in any prohibited political activity
•   to post agency information to external newsgroups, bulletin boards or other public forums without au-
    thority
•   to transmit any type of classified material through the Internet or the NRC servers
•   to make personal use of long distance telephone calls or long distance facsimile service, use of mes-
    sage pagers and cellular phones except as permitted by MD 2.3




                                                                                                             Page 3
NUREG/BR 0272
    Con’t.
    Also Prohibited:


    •    loading personal software onto government computers
    •    unauthorized acquisition, use, reproduction, transmission, or distribution
         of any controlled information including computer software or data that
         includes privacy information, copyright, trademark, or material with other
         intellectual property rights (beyond fair use), proprietary data, or export-
         controlled software or data
    •    any activity which interferes with official duties.



    Office of Government Ethics

    The Office of Government Ethics states in Basic Obligation of Public Service, 5 CFR §2635.101 “(b)(5)
    Employees shall put forth honest effort in the performance of their duties… (9) Employees shall protect
    and conserve Federal property and shall not use it for other than authorized activities.” 5 CFR
    §2635.704 Use of Government Property (a) Standard. An employee has a duty to protect and con-
    serve Government property and shall not use such property or allow its use for other than authorized
    purpose. (1) Government Property includes any form of real or personal property in which the Govern-
    ment has an ownership, leasehold, or other property interest as well as any right or other intangible in-
    terest that is purchased with Government funds, including the services of contractor personnel. The
    term includes office supplies, telephone and other telecommunications equipment and services, the
    Government mails, automated processing capabilities, printing and reproduction facilities, Government
    records and Government vehicles.



    Yellow Announcement

    Yellow Announcement No. 077, “The Use of the Internet at the NRC” dated December 5, 2001, states
    in part,


    “‘...NRC employees must exercise common sense, good judgment, and propriety in the use of this valu-
    able resource….


    The NRC allows employees to use the Internet for limited personal use when such use involves mini-
    mal or no additional expense to the government, is performed on the employees’ non-work time, does
    not interfere with the NRC’s mission or operation, does not violate the Standards of Ethical Conduct for
    Employees of the Executive Branch regulations, and is not otherwise prohibited by law.’”




Page 4
                                                                                             OIG FRAUD BULLETIN
                                             OIG Audit

    The Office of the Inspector General performed an audit of Internet us-
    age over an eight day period in June 2001. The results of that audit dis-
    closed that at least 52% and as much as 79% of employee Internet ac-
    tivity was for personal use.


    During this audit, a data analysis was performed on computers that had
    long hours logged into Internet sites. It was determined that in some
    cases hundreds of hours were logged into pornographic sites. The fol-
    lowing examples are brief summaries of OIG cases of inappropriate
    Internet and government equipment use.


                 OIG Cases on Misuse of Government Pagers

    This OIG investigation deter-      the expenses in-                           The employee made frequent
    mined that over a four month       curred.                                    and lengthy personal pages to
    period an NRC manager used                                                    another continent which re-
    an NRC assigned message                                                       sulted in excess charges to
    pager for personal use. The        An NRC contractor                          the NRC of almost $1,100.
    cost to the government was         employee used his                          The contractor reimbursed the
    over $1,000.                       NRC-owned                                  NRC for the expenses in-
                                       SKYTEL        Keep NRC issued pagers
                                                     for business purposes
                                                                                  curred.
                                       pager as-
    The employee had previously        signed to him only.                        The employee was terminated
    planned to resign from the         for personal                               from his position as a result of
    NRC. Upon his departure, he        communications.                            the misuse of the pager.
    reimbursed the government for


               OIG Cases on Pornography and Gambling
    An Office of the Inspector Gen-    In several other separate OIG            Those contractor employees are
    eral investigation revealed that   cases, the investigations re-            no longer employed by the com-
    an NRC manager had                 vealed that several contractor           pany.
    downloaded pornographic mov-       employees downloaded porno-
    ies and pictures onto his com-     graphic images and gambling              You may use the
    puter.                             sites onto their computers.            Internet for personal
                                                                               reasons before and
    The manager spent the last 6-      The contractor’s employer has   after work or during
    12 months viewing and              agreed to reimburse the NRC for your lunch break, as
    downloading prohibited material    the 89 hours that their employ-  long as the use is
    from the Internet.                 ees were engaged in prohibited     not specifically
                                       personal use of NRC computer        prohibited by
                                       equipment.                           Management
    Rather than face administrative
    action, the manager left the                                                Directive or law.
    agency.
Page 5
                                                                                                    OIG FRAUD BULLETIN
   Con’t.

    Another OIG investigation deter-      In another case investigated by    There are other cases cur-
    mined that an NRC employee            OIG, an employee admitted us-      rently pending where NRC
    had viewed and downloaded por-        ing his computer to view and       employees have downloaded
    nographic material onto his NRC       access pornographic sites.         images from pornographic
    computer totaling over 75 hours.                                         sites. The agency has not yet
    The employee admitted to OIG          During the timeframe of May 11     made a determination on
    investigators that he had been        to June 8 he spent almost 7        these cases.
    doing this for almost a year. The     hours downloading and viewing
    employee also admitted that he        sites of a sexually explicit na-
    often spent most of his duty hours    ture. The employee admitted to
    downloading and viewing porno-        OIG that he knew it was against
    graphic material. He would use        NRC policy to use an NRC
    as many as 10 diskettes to copy       computer for this type of activ-
    the material depending on the         ity.
    size and quantity of the images
    he downloaded. Some of the            The NRC employee
    diskettes he used were acquired       was suspended for
    from the NRC Supply store.            45 days without pay.

    This employee left Federal em-
    ployment rather than face admin-
    istrative action.




    BEWARE: New ATM Scam—An Actual Case

    The last person at the ATM      and the customer is confused          After several attempts, the cus-
    just completed what looked like as to why this is so. However,        tomer is convinced the machine
    a simple transaction.           help is on the way...or is it?        has captured his card. Both the
                                                                          customer and the thief leave the
    The person is actually rigging      Now the perpetrator is pretend-   ATM.
    the slot on the machine so it       ing to offer assistance. What
    will capture the card of the next   he really is trying to               Satisfied that the coast is
    person.                             do is obtain the cus-                clear, the thief returns to re-
                                        tomer’s P.I.N.                       trieve the card that has been
    Rigging is very risky business                                           captured by his trap. He not
    and requires a “lookout” to         He convinces the                     only has the customers card
    warn of possible witnesses          customer that he will                he also has his P.I.N.
    and/or potential victims.           be able to retrieve
                                        his card if he en-                   Armed with card and P.I.N. he
    The next customer comes to          tered his P.I.N.                     was able to withdraw $1,000
    the machine after the trap has      while he held down                   from the account.
    been set. He inserts his card       both the “cancel”
    and attempts a transaction.         and “enter” buttons.
    The card has been captured

Page 6                                                                                        OIG Fraud Bulletin
         United States Nuclear
         Regulatory Commission



         Mail Stop T 5D-28              A small section in the U.S. News and World Re-
         USNRC                          port, dated January 14, 2002, quoted a memo to
         Washington, DC 20555
                                        State Department Employees: New boss Colin
         Phone: 301-415-5930
                                        Powell is a nice guy, but he won’t excuse those
         Fax: 301-415-5091              who open porn sites on State Department Inter-
                                        net accounts, join X-rated chat rooms, or send
                                        out nasty E-mails. Proof: Probes and punish-
         Hotline:                       ments are up for those who tap porn sites or
         800-233-3497                   send chain letters or jokes of questionable
                                        taste.




                                 Office of the Inspector
                                         General




                                                                    rf in g .. .
                                                           Keep su
                                                                   li n e w il l
                                                           the Hot
                                                                b e   o n the
                                                           soon
                                                                WEB    !




Page 7                                                                             NUREG/BR 0272
